VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATOINS




                                                                        Inspection of 

                                                                     VA Regional Office 

                                                                    Salt Lake City, Utah




                                                                                      October 8, 2014
                                                                                       14-01688-303
                                 ACRONYMS

FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Inspection of VA
                    Regional Office Salt Lake City, UT

Why We Did This Review                             Compensation (SMC) and ancillary benefits
                                                   claims completed by VARO staff during
The Veterans Benefits Administration (VBA)         calendar year 2013 contained errors. The
has 56 VA Regional Offices (VAROs) and             errors were unrelated and did not constitute a
a Veterans Service Center in Cheyenne, WY,         systemic processing weakness.
that process disability claims and provide a
range of services to veterans. We evaluated        For two consecutive benefits inspections,
the Salt Lake City VARO to see how well it         VARO managers ensured Systematic
accomplishes this mission. Claims processing       Analyses of Operations were complete and
that lacks compliance with VBA procedures          timely. However, staff delayed completing
can result in the risk of paying inaccurate and    4 of 30 rating reduction claims because
unnecessary financial benefits. We conducted       management prioritized other rating-related
onsite work at the VARO in April 2014.             work.

What We Found                                      What We Recommended
Overall, VARO staff did not accurately             We recommended the VARO Director
process 15 of 68 disability claims reviewed.       implement plans needed to ensure timely
We sampled claims we considered at higher          action on reminder notifications for medical
risk of processing errors, thus these results do   reexaminations and take appropriate action
not represent the overall accuracy of disability   on the 135 temporary 100 percent disability
claims processing at this VARO. Of the three       evaluations remaining from our inspection
types of disability claims reviewed, we found      universe. The Director should also develop a
VARO staff should improve processing               plan to prioritize actions on benefits
actions related to temporary 100 percent           reductions to minimize improper payments to
disability evaluations. In our 2014 inspection,    veterans and ensure the VARO’s timeliness
12 of the 30 temporary 100 percent disability      standards for processing benefits reduction
evaluations were inaccurate, primarily because     cases are consistent with VBA policy.
staff delayed ordering medical reexaminations
on average for 5 months after receiving            Agency Comments
reminder notifications. Comparatively, 16 of
the 30 cases reviewed during our                   The Director of the Salt Lake City VARO
2011 benefits inspection contained errors.         concurred with all recommendations. We
Most of the errors from our 2011 inspection        will follow up on actions as deemed
occurred when VARO staff did not enter             necessary.
suspense diaries in the electronic record.

Generally, VARO staff processed traumatic
brain injury claims correctly—a significant                  LINDA A. HALLIDAY
improvement from the 40 percent inaccuracy                Assistant Inspector General
rate identified during our 2011 inspection.               for Audits and Evaluations
However, two of the eight Special Monthly
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. Disability Claims Processing ..................................................................................................2
 

           Finding 1              Salt Lake City VARO Needs To Improve Disability Claims

                                  Processing Accuracy....................................................................................2
 

                                  Recommendations........................................................................................8
 

  II. Management Controls ...........................................................................................................10 


           Finding 2              VARO Lacked Oversight To Ensure Immediate Action on Benefits 

                                  Reductions..................................................................................................11 


                                  Recommendations......................................................................................12 


Appendix A                        VARO Profile and Scope of Inspection .....................................................13
 

Appendix B                        Inspection Summary ..................................................................................15 


Appendix C                        VARO Director’s Comments.....................................................................16 


Appendix D                        OIG Contact and Staff Acknowledgments ................................................18 


Appendix E                        Report Distribution ....................................................................................19 

                                                         Inspection of the VARO Salt Lake City, UT



                    INTRODUCTION
Objective	          The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other 	                Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Salt Lake City VARO Director’s comments on
                       a draft of this report.




VA Office of Inspector General                                                                   1
                                                                     Inspection of the VARO Salt Lake City, UT



                     RESULTS AND RECOMMENDATIONS
                     I. Disability Claims Processing

Claims               The OIG Benefits Inspection team focused on accuracy in processing
Processing           temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy
                     claims, and special monthly compensation (SMC) and ancillary benefits. We
                     evaluated these claims processing issues and their impact on veterans’
                     benefits.

Finding 1 	          Salt Lake City VARO Needs To Improve Disability Claims
                     Processing Accuracy

                     The Salt Lake City VARO did not consistently process temporary
                     100 percent disability evaluations or entitlement to SMC and ancillary
                     benefits. Overall, VARO staff incorrectly processed 15 of the total
                     68 disability claims we sampled, resulting in 134 improper monthly
                     payments to 5 veterans totaling approximately $242,592.

                     We sampled claims related only to specific conditions that we considered at
                     higher risk of processing errors. As a result, the errors identified do not
                     represent the universe of disability claims or the overall accuracy rate at this
                     VARO. Table 1 reflects the errors affecting, and those with the potential to
                     affect, veterans’ benefits processed at the Salt Lake City VARO.

                Table 1. Salt Lake City VARO Disability Claims Processing Accuracy
                                                                           Claims
                                                 Claims
                                                                        Inaccurately                Claims
                                              Inaccurately
           Type of           Claims                                       Processed:              Inaccurately
                                               Processed:
           Claim            Reviewed                                    Potential To               Processed:
                                           Affected Veterans’
                                                                       Affect Veterans’              Total
                                                Benefits
                                                                           Benefits
       Temporary
       100 Percent
                             30                       3                        9                    12
       Disability
       Evaluations
       TBI Claims            30                       0                        1                     1
       SMC and
       Ancillary               8                      2                        0                     2
       Benefits
        Total                68                       5                       10                    15
       Source: VA OIG analysis of the Veterans Benefits Administration’s (VBA) temporary 100 percent
       disability evaluations paid at least 18 months, TBI disability claims completed in the first quarter fiscal
       year (FY) 2014, and SMC and ancillary benefits claims completed in calendar year 2013



VA Office of Inspector General                                                                                       2
                                                           Inspection of the VARO Salt Lake City, UT


Temporary           VARO staff incorrectly processed 12 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a veteran’s service-connected disability following
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed 3 of the 12 processing errors we
                    identified affected benefits and resulted in 54 improper monthly payments to
                    3 veterans totaling $31,413. These improper payments occurred from
                    September 2009 until April 2014. Details on the 3 cases with errors
                    affecting veterans’ benefits follow.

                    	 In two cases, VARO staff did not timely reduce benefits after receiving
                       medical evidence that showed the veterans’ conditions no longer
                       supported the temporary 100 percent disability evaluations. As a result,
                       one veteran was overpaid approximately $16,531 over a period of
                       7 months; the other veteran was overpaid approximately $10,902 over a
                       period of 6 months.
                    	 In the third case, a Rating Veterans Service Representative (RVSR) did
                       not establish the correct effective date for entitlement to special monthly
                       compensation benefits. Consequently, the veteran was underpaid
                       $3,980 over a period of 3 years and 5 months.

                    Following are details on the nine errors with the potential to affect veterans’
                    benefits.

                    	 Four of the errors with the potential to affect veterans’ benefits occurred
                       when VARO staff delayed scheduling required VA examinations despite
                       receiving reminder notifications that the examinations were due.
                       Summaries of the four cases follow.
                        o	 Because staff delayed scheduling medical reexaminations, two of the
                           cases we sampled lacked the required medical examination reports
                           needed to determine if the temporary 100 percent disability
                           evaluations should continue.


VA Office of Inspector General                                                                     3
                                                            Inspection of the VARO Salt Lake City, UT


                       o	   In two other cases, VARO staff delayed scheduling required medical
                            examinations; however, the errors did not affect the veterans’ overall
                            disability evaluations at the time of our inspection in April 2014.
                    	 An error occurred in one of the cases when an RVSR established an
                       incorrect date for a future medical examination for a veteran’s prostate
                       cancer. In this case, the RVSR inadvertently extended the date of the
                       examination 5 years in the future. Generally, 18 months is the longest
                       period a temporary 100 percent disability evaluation would remain in
                       effect before a reexamination would be required.
                    	 In another case, an RVSR incorrectly proposed to reduce a temporary
                       100 percent evaluation despite medical evidence that showed continued
                       treatment for cancer. The medical evidence continued to support the
                       veterans’ 100 percent disability evaluation. Because we alerted VARO
                       staff to the error before the reduction took place, the error did not affect
                       the veteran’s current benefits.
                    	 One error occurred when an RVSR did not establish a future examination
                       for the veteran’s prostate cancer, nor did the RVSR indicate the veteran’s
                       disability was permanent.        Without controls in place, reminder
                       notifications to schedule medical reexaminations do not generate in the
                       electronic record. In such cases, the temporary 100 percent disability
                       evaluations continue to be paid at the existing rate unless some other
                       action brings those cases into question.
                    	 VARO staff did not take timely action to reduce benefits after notifying
                       the veteran of the intent to do so in October 2013. The expiration of the
                       due process period had not elapsed, so the reduction in benefits was set to
                       take place in the future. As such, we could not calculate the amount of
                       the improper payments resulting from the delay at the time of our
                       inspection.
                    	 In the final case, an error occurred when an RVSR incorrectly granted
                       service connection for a voiding dysfunction secondary to prostate
                       cancer; however, the veteran’s cancer was still active and evaluated as
                       100 percent disabling. According to VBA policy, RVSRs are required to
                       evaluate residual disabilities, such as a voiding dysfunction, unless the
                       cancer is active or has metastasized.

                    Most frequently, the processing inaccuracies resulted from inadequate
                    oversight to ensure staff took timely action to schedule medical reexaminations
                    after receiving reminder notifications to do so. According to VBA policy,
                    VARO staff have 30 days to process a reminder notification by establishing an
                    appropriate control to initiate action. In the cases we reviewed, processing
                    delays averaged about 5 months from the time the reminder notifications
                    generated until staff took action to order the required medical reexaminations, or
                    April 2014—the month our inspection began. Interviews with VARO staff and
                    management revealed other claims processing activities had higher priority.


VA Office of Inspector General                                                                       4
                                                           Inspection of the VARO Salt Lake City, UT


                    VARO management stated it focused on priorities directed by Western Area;
                    however, the instructions did not include taking timely action to schedule
                    medical reexaminations after receiving reminder notifications.

                    Generally, VARO management disagreed with our assessments regarding
                    7 of the 12 errors we identified. Management considered these cases
                    workload issues rather than errors, and pointed out that they had no monetary
                    impact on veterans. We disagreed with the VARO’s position in these seven
                    cases, concluding that staff did not process the claims according to VBA
                    policy. It is a VBA management responsibility to address this issue, which
                    entails millions of dollars in improper payments. Where VBA lacks
                    sufficient staff to properly address its management responsibilities, it should
                    make its case for an increase in full-time equivalents through the normal
                    budget process.

Follow-Up to        In our previous inspection report, Inspection of the VA Regional Office, Salt
Prior VA OIG        Lake City, Utah (Report No. 10-03880-142, April 13, 2011), VARO staff
Inspection
                    incorrectly processed 16 of 30 temporary 100 percent disability evaluations
                    we reviewed. The majority of the errors resulted from staff not establishing
                    suspense diaries in the electronic record.

                    The Salt Lake City VARO Director (the Director) concurred with our
                    recommendations and indicated that management had reviewed all
                    temporary 100 percent disability evaluation decisions processed at the
                    VARO since February 2007. Staff also reviewed the 55 cases remaining
                    from our prior inspection universe and determined 30 of the cases required
                    medical reexaminations as a basis for deciding whether to continue the
                    veterans’ 100 percent disability evaluation. Management provided staff with
                    guidance and procedures on entering suspense diaries in the electronic record
                    to prompt scheduling the reexaminations. During our April 2014 inspection,
                    we did not identify any errors where VARO staff did not enter suspense
                    diaries in the electronic system. As such, we concluded the VARO’s actions
                    to address recommendations in this regard were effective.

                    During our 2011 inspection, we also identified 390 reminder notifications for
                    medical reexaminations that staff had not processed. The delays occurred
                    because supervisory staff misinterpreted the requirements for scheduling the
                    examinations and erroneously instructed staff to discontinue reviewing the
                    reminder notifications. In response to our recommendations, the Director
                    required staff to review and take appropriate actions on the pending reminder
                    notifications. VARO staff updated the workload management plan to
                    establish the frequency for staff to conduct the reviews, as well to designate
                    responsibility for this workload. During our April 2014 inspection, we
                    identified four cases where staff delayed taking actions to process reminder
                    notifications. However, VARO managers attributed those delays to
                    inadequate staffing and competing priorities rather than erroneous
                    instructions from supervisors advising staff not to review the notifications.

VA Office of Inspector General                                                                     5
                                                           Inspection of the VARO Salt Lake City, UT


                    In an August 2013 Internal Controls Systematic Analysis of Operations
                    (SAO), the VARO self-identified that the non-rating team was not
                    adequately staffed to manage its workload, which included taking actions on
                    pending reminder notifications. Therefore, in December 2013, VARO
                    managers assigned two additional team members with responsibility for
                    processing reminder notifications. Consequently, by March 2014, the
                    VARO’s average time pending for reminder notifications to order
                    reexaminations was 37 days—exceeding VBA’s 30-day processing
                    requirement by 7 days. Although the VARO has shown some improvement
                    in processing reminder notifications, further improvement is needed to
                    ensure staff actually enter the reexamination requests in the electronic record.
                    Without them, VA health care facilities cannot know to schedule the
                    reexaminations.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    We determined VARO staff incorrectly processed 1 of 30 TBI claims. In
                    this case, an RVSR assigned a 40 percent evaluation for a TBI-residual
                    disability. Objective evidence provided in the TBI examination report
                    showed symptoms supporting a noncompensable or zero percent evaluation
                    instead.    Since the veteran’s combined disability evaluations was
                    100 percent, the error did not affect monthly benefits. However, if left
                    uncorrected, the error could affect future claims for benefits.

                    Because we identified no errors among the remaining 29 cases reviewed, we
                    determined the VARO generally followed VBA policy in processing TBI
                    claims. Therefore, we made no recommendation for improvement in this
                    area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Salt, Lake City,
Prior VA OIG        Utah (Report No. 10-03880-142, April 13, 2011), 12 of the 30 TBI claims
Inspection
                    reviewed contained processing errors. Generally, errors associated with TBI
                    claims processing occurred because RVSRs used VA medical examinations

VA Office of Inspector General                                                                     6
                                                           Inspection of the VARO Salt Lake City, UT


                    that were insufficient for decision-making purposes. In response to our
                    recommendations for improvement, the Director agreed to ensure RVSRs
                    received additional training related to processing TBI claims. In January
                    2012, the OIG closed this recommendation.

                    Given that we identified only one error in TBI claims processing during our
                    April 2014 inspection, we concluded the corrective action taken in response
                    to our 2011 VARO inspection report was adequate. As such, we made no
                    recommendation for improvement in this area.

Special             As the concept of rating disabilities evolved, VBA realized that for certain
Monthly             types of disabilities, the basic rate of compensation was not sufficient for the
Compensation
and Ancillary
                    level of disability present. Therefore, VBA established SMC to recognize
Benefits            the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb or the
                    need to rely on others for the activities of daily life, like bathing or eating.
                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist.

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that, without it, the veteran would be
                       permanently confined to a skilled-care nursing home.

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for special monthly compensation. Examples of ancillary benefits
                    are:

                    	 Dependents’ Educational Assistance under Chapter 35 title 38, United
                       States Code
                    	 Specially Adapted Housing Grant
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement to these benefits. We examined


VA Office of Inspector General                                                                     7
                                                          Inspection of the VARO Salt Lake City, UT


                    whether VARO staff accurately processed entitlement to SMC and ancillary
                    benefits associated with anatomical loss, loss of use of two or more
                    extremities, or bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 2 of 8 veterans’ claims involving SMC
                    and related ancillary benefits. Both errors affected veterans’ benefits and
                    resulted in 80 improper monthly payments totaling approximately
                    $211,179 from October 2007 to April 2014. Following are details on the two
                    errors affecting veterans’ benefits payments.

                    	 In the first case, an RVSR incorrectly granted SMC at a rate for increased
                       aid and attendance when the veteran did not meet VBA’s evaluation
                       requirements for this grant. VBA regulations require that a veteran have,
                       in addition to other service-connected disabilities, an additional single
                       disability rated at 100 percent to warrant SMC at the level in this case.
                       As a result of the error, the veteran was overpaid approximately $208,893
                       since 2007. VARO management agreed with our assessment that the
                       veteran was not entitled to the monetary benefits that VA had paid since
                       2007. However, management did not believe this was an error because
                       the error occurred on a prior rating decision.
                    	 In the remaining case, an RVSR used an incorrect date to grant SMC for
                       blindness with an additional 100 percent evaluation for renal failure
                       requiring dialysis. The RVSR used the date VA received the veteran’s
                       claim; however, the VA exam report and medical records showed the
                       veteran began dialysis nearly 6 weeks earlier. VA regulations require
                       RVSRs to use the earliest possible date for increasing benefits. Because
                       the date used to pay the additional benefits was incorrect, the veteran was
                       underpaid approximately $2,286 over a 2-month period. VARO
                       management concurred with this error.

                    The two errors did not constitute a common processing weakness at the
                    Salt Lake City VARO. As such, we made no recommendation for
                    improvement in this area.

                    Recommendations

                    1.	 We recommended the Salt Lake City VA Regional Office Director
                        develop and implement a plan to ensure staff take timely and appropriate
                        action on reminder notifications for medical reexaminations.

                    2.	 We recommended the Salt Lake City VA Regional Office Director
                        develop and implement a plan to review for accuracy the 135 temporary
                        100 percent disability evaluations remaining from our inspection
                        universe and take appropriate action.




VA Office of Inspector General                                                                    8
                                                         Inspection of the VARO Salt Lake City, UT


Management          The VARO Director concurred with our recommendations. According to the
Comments            Director, as of September 24, 2014, the Salt Lake City VARO did not have
                    any reminder notifications for medical examinations pending. VARO staff
                    responsible for processing temporary 100 percent disability evaluations are
                    expected to receive additional training by October 31, 2014. Further, staff
                    also completed a review of the 135 temporary 100 percent disability
                    evaluations remaining from our inspection universe.

OIG Response        The Director’s planned actions to address the recommendations are
                    responsive.




VA Office of Inspector General                                                                   9
                                                           Inspection of the VARO Salt Lake City, UT


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and to propose corrective actions.
                    VARO management must prepare annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

                    VARO staff completed all 11 mandated SAOs timely according to the SAO
                    schedule. All SAOs contained the required elements, included thorough
                    analyses using appropriate data, identified weaknesses or concerns, and
                    provided recommendations for improvement when needed.
Follow-Up to        In our previous report, Inspection of the VA Regional Office, Salt Lake City,
Prior VA OIG        Utah (Report No. 10-03880-142, April 13, 2011), we determined VARO
Inspection
                    staff generally complied with VBA policy when completing SAOs. Since
                    our April 2014 benefits inspection disclosed no issues regarding complete
                    and timely submission of SAOs, we made no recommendation for
                    improvement in this area.

Benefits            VBA policy provides for the payment of compensation to veterans for
Reductions          conditions they incurred or aggravated during military service. The amount
                    of monthly compensation to which a veteran is entitled may change because
                    his or her service-connected disability may improve. Improper payments
                    associated with benefits reductions generally occur when beneficiaries
                    receive payments to which they are not entitled because VAROs do not take
                    the actions required to ensure correct payments for their levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed benefits reduction. In
                    order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs must make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefits reductions. The new policy no longer

VA Office of Inspector General                                                                   10
                                                           Inspection of the VARO Salt Lake City, UT


                    includes the requirement for VARO staff to take “immediate action” to
                    process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits.

Finding 2 	         VARO Lacked Oversight To Ensure Immediate Action on
                    Benefits Reductions

                    VARO staff delayed processing 4 of the 30 claims involving decisions to
                    reduce or discontinue benefits. Generally, delays in processing benefits
                    reductions occurred because VARO managers did not provide oversight to
                    ensure staff processed these cases timely. As a result, VA made 15 improper
                    payments to 4 veterans from April 2013 to March 2014 totaling
                    approximately $3,574.

                    The most significant improper payment occurred when staff proposed
                    reducing a veteran’s benefits after medical evidence showed the medical
                    condition had improved. In June 2013, VARO staff proposed reducing the
                    veteran’s evaluation from 50 percent disabling to 20 percent. However, the
                    final action to reduce benefits did not occur until December 2013—3 months
                    beyond the date staff should have taken the action. As a result, the veteran
                    received approximately $1,392 in improper payments.

                    The four cases showed processing delays ranging from 1 month to 9 months.
                    An average of 4 months elapsed before staff took the required actions. These
                    processing delays occurred because the VARO did not place priority on this
                    workload. VARO managers and staff told us a national initiative directed
                    that they process the VARO’s oldest rating-related pending claims rather
                    than rating reduction claims. Additionally, we examined the VARO’s local
                    workload management plan and found the local timeliness standards
                    associated with rating reductions to be out of line with the national timeliness
                    standards. Specifically, the local workload management plan established a
                    110-day goal for the non-rating workload including benefits reductions,
                    exceeding VBA’s established goal for this type of work by 35 days.

                    VARO management disagreed with our assessments in the four cases we
                    identified as having processing delays. The VSC manager acknowledged the
                    VARO’s responsibility to take timely action on rating decisions involving
                    benefits reduction; however, he regarded the four cases we identified as
                    workload management issues that are neither errors nor procedural
                    deficiencies.




VA Office of Inspector General                                                                   11
                                                          Inspection of the VARO Salt Lake City, UT


                    Recommendations

                    3.	 We recommended the Salt Lake City VA Regional Office Director
                        implement a plan to ensure claims processing staff prioritize actions
                        related to benefits reductions to minimize improper payments to veterans.

                    4.	 We recommended the Salt Lake City VA Regional Office Director
                        amend the local workload management plan to ensure timeliness
                        standards for processing benefits reduction workloads consistent with
                        Veterans Benefits Administration policy.

Management          The VARO Director concurred with our recommendations. The Director
Comments            updated the VARO’s workload management plan and operating procedures
                    to specify supervisory staff and VSRs are responsible for identifying and
                    routing benefits reduction cases for action. The workload management plan
                    also includes an inventory target for this workload that is in line with VBA
                    policy and agency goals. Further, the Director increased the staffing levels
                    for the non-rating team—the team responsible for processing this workload.

OIG Response        The Director’s comments         and    actions   are    responsive    to   the
                    recommendations.




VA Office of Inspector General                                                                  12
                                                         Inspection of the VARO Salt Lake City, UT


Appendix A          VARO Profile and Scope of Inspection

Organization        The Salt Lake City VARO administers a variety of services and benefits,
                    including disability compensation; vocational rehabilitation and employment
                    assistance; benefits counseling; and outreach to former prisoners of war,
                    homeless, elderly, minorities, and women. The Salt Lake City VARO also
                    has a National Call Center and a Benefits Delivery at Discharge program.

Resources           As of March 2014, VBA reported the Salt Lake City VARO had a staffing
                    level of 525 full-time employees. Of this total, the VSC had 135 employees
                    assigned.

Workload            As of March 2014, the VARO reported 11,679 pending compensation
                    claims. On average, claims were pending 161.4 days—46.4 days more than
                    the VBA’s FY 2014 target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process disability
Methodology         claims and provide a range of services to veterans. In April 2014, we
                    evaluated the Salt Lake City VARO to see how well it accomplishes this
                    mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to indicators of fraudulent claims processing.

                    Our review included 30 (18 percent) of 165 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of March
                    12, 2014. This is generally the longest period a temporary 100 percent
                    disability evaluation may be assigned without review, according to VBA
                    policy. We provided VARO management with 135 claims remaining from
                    our universe of 165 for its review. We reviewed 30 (21 percent) of
                    143 disability claims related to TBI that the VARO completed from October
                    through December 2013. We examined 8 of the total 14 veterans’ claims
                    involving entitlement to SMC ancillary benefits VARO staff completed from
                    January through December 2013. Five of these cases were processed at other
                    offices and one was outside the scope of our review.

                    Prior to VBA’s consolidating Fiduciary Activities nationally, each VARO
                    was required to complete 12 SAOs. However, since the Fiduciary
                    consolidation, VAROs are now only required to complete 11 SAOs.
                    Therefore, we reviewed the 11 SAOs related to VARO operations.

VA Office of Inspector General                                                                 13
                                                           Inspection of the VARO Salt Lake City, UT


                    Additionally, we examined 30 (25 percent) of 118 completed claims that
                    proposed reductions in benefits.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the 98 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI, SMC and ancillary benefits, and completed claims related to benefits
                    reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    As reported by VBA’s Systemic Technical Accuracy Review program as of
                    March 2014, the overall claims-based accuracy of the VARO’s
                    compensation rating-related decisions was 92.1 percent. We did not test the
                    reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                   14
                                                                      Inspection of the VARO Salt Lake City, UT


Appendix B           Inspection Summary

                     Table 2 reflects the operational activities inspected, applicable criteria, and
                     whether or not we had reasonable assurance of VARO compliance.

                            Table 2. Salt Lake City VARO Inspection Summary
         Operational                                                                              Reasonable
          Activities                                     Criteria                                 Assurance of
          Inspected                                                                               Compliance
          Disability
           Claims
          Processing
                             Determine whether VARO staff properly reviewed temporary
       Temporary
                             100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
       100 Percent
       Disability
                             3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii,                  No
                             Chapter 2, Section J) (M21-1MR Part III, Subpart iv, Chapter
       Evaluations
                             3, Section C.17.e)
                             Determine whether VARO staff properly processed claims for
       Traumatic Brain
       Injury Claims
                             service connection for all disabilities related to in-service TBI.       Yes
                             (FL 08-34 and 08-36) (Training Letter 09-01)
                             Determine whether VARO staff properly processed SMC and
       Special Monthly
                             correctly granted entitlement to ancillary benefits.
       Compensation and
                             (38 CFR 3.350, 3.352, 3.807, 3.808, 3.809, 3.809a, 4.63, and
                                                                                                      No
       Ancillary Benefits
                             4.64) (M21-1MR IV.ii.2.H and I)
         Management
          Controls
       Systematic            Determine whether VARO staff properly performed formal
       Analysis of           analyses of their operations through completion of SAOs.                 Yes
       Operations            (M21-4, Chapter 5)
                             Determine whether VARO staff timely and accurately
                             processed disability evaluation reductions or terminations.
       Benefits              (38 CFR 3.103(b)(2)), (38 CFR 3.105(e)), (38 CFR 3.501),
       Reductions            (M21-1MR.IV.ii.3.A.3.e), (M21-1MR.I.2.B.7.a), (M21-
                                                                                                      No
                             1MR.I.2.C), (M21-1MR.I.ii.2.f), (M21-4, Chapter 2.05(f)(4)),
                             (Compensation & Pension Service Bulletin, October 2010)
        Source: VA OIG
        CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                               15
                                                                           Inspection of the VARO Salt Lake City, UT


Appendix C                 VARO Director’s Comments


                Department of                                          Memorandum
                Veterans Affairs
        Date:          September 24, 2014
        From:          Director, VA Regional Office Salt Lake City, Utah

        Subj:          Inspection of the VA Regional Office, Salt Lake City, Utah

          To:          Assistant Inspector General for Audits and Evaluations (52)



                1. 	   The Salt Lake City VARO’s comments are attached on the OIG Draft Report: 

                       Inspection of the VA Regional Office, Salt Lake City, Utah. 


                2. 	   Please refer questions to Kimberly J. Albers, (801) 326-2332.


                       (original signed by:)

                       Jon Skelly

                       Director



                       Attachment




VA Office of Inspector General                                                                                   16
                                                               Inspection of the VARO Salt Lake City, UT


                                                                                              Attachment

Salt Lake City (341)                                                                 September 24, 2014

OIG Recommendations:

Recommendation 1: We recommended the Salt Lake City VA Regional Office Director develop and
implement a plan to ensure staff take timely and appropriate action on reminder notifications for medical
reexaminations

     Salt Lake City VARO Response: Concur

     The Salt Lake City Regional Office (RO) will conduct additional training on 100 percent disability
     evaluations by October 31, 2014, for the staff that process these claims. The Salt Lake City RO will
     continue to process the end product 684s in response to VA Central Office's policy of notifying
     stations when future diary date has not been established. As of September 24, 2014, there are no
     write outs pending for future medical examinations.

Recommendation 2: We recommended the Salt Lake City VA Regional Office Director develop and
implement a plan to review for accuracy the 135 temporary 100 percent disability evaluations remaining
from our inspection universe and take appropriate action.

     Salt Lake City VARO Response: Concur

     The Salt Lake City RO completed the review of the remaining 135 temporary 100 percent disability
     evaluations on June 16, 2014.

Recommendation 3: We recommended the Salt Lake City VA Regional Office Director implement a
plan to ensure claims processing staff prioritize actions related to benefits reductions to minimize
improper payments to veterans.

     Salt Lake City VARO Response: Concur

     The Salt Lake City RO is following national workload directives and priorities on reducing the
     backlog. The Salt Lake City RO has updated appropriate Veterans Service Center SOPs and the
     Workload Management Plan to specify that Supervisors and VSRs are responsible for ensuring
     maturing EP 600s are identified and routed for action. Additionally, the Salt Lake City RO increased
     its staffing levels of the Non-Rating Team, which is responsible for processing these claims.

Recommendation 4: We recommended the Salt Lake City VA Regional Office Director amend the local
workload management plan to ensure timeliness standards for processing benefits reduction workloads
consistent with Veterans Benefits Administration policy.

     Salt Lake City VARO Response: Concur

     The Salt Lake City RO non-rating inventory is currently below its FY 2014 target established by the
     Veterans Benefits Administration (VBA). The FY 2014 target for pending write-out inventory for the
     Salt Lake City RO is 4,466; as of the end of August 2014, the pending inventory for this workload in
     Salt Lake City was 1,629. The Salt Lake City RO modified the Workload Management Plan to
     include its inventory target for these claims to ensure consistency with VBA policies and agency
     goal.




VA Office of Inspector General                                                                          17
                                                 Inspection of the VARO Salt Lake City, UT


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Robert Campbell
                                         Kyle Flannery
                                         Lee Giesbrecht
                                         Ambreen Husain
                                         Suzanne Love
                                         Michelle Santos-Rodriguez
                                         Lisa Van Haeren
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                         18
                                                        Inspection of the VARO Salt Lake City, UT


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Western Area Director
                    VA Regional Office Salt Lake City Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Orrin Hatch, Mike Lee
                    U.S. House of Representatives: Rob Bishop, Jason Chaffetz, Jim Matheson,
                       Chris Stewart




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                19
